   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




Enrollment and Certification Processes in the
     Clinical Laboratory Improvement
           Amendments Program




                       JANET REHNQUIST
                         Inspector General

                           AUGUST 2001
                          OEI-05-00-00251
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them.
This statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches
to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

John Traczyk, Team Leader                               Bambi Straw, Program Specialist

Susan Otter, Lead Analyst

Dennis Tharp, Analyst





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
         Reports are also available on the World Wide Web at our home page address:

                                      http://www.hhs.gov/oig/oei/
                         EXECUTIVE SUMMARY


PURPOSE

        To identify vulnerabilities in the Clinical Laboratory Improvement Amendments program
        enrollment and certification processes.


BACKGROUND

        The Clinical Laboratory Improvement Amendments of 1988 (CLIA) establish “quality
        standards for all laboratory testing to ensure the accuracy, reliability and timeliness of
        patient test results regardless of where the test was performed.” The Centers for
        Medicare and Medicaid Services (CMS) oversee the CLIA program.

        Laboratories that conduct moderate or high complexity testing are surveyed every 2 years
        by State agencies and private sector accreditation agencies to ensure compliance.
        Laboratories conducting provider-performed microscopy procedures and/or waived tests
        are not routinely surveyed. Waived and provider-performed microscopy facilities
        constitute 75 percent of laboratories certified under CLIA.

        Waived tests are determined by the FDA to have “an insignificant risk of erroneous
        result,” including simple and accurate tests or “those which pose no reasonable risk of
        harm to the patient if performed incorrectly.” Tests sold over the counter for home use
        are included in the waived category.

        The information presented in this report was collected during the inspection titled: CLIA
        Regulation of Unestablished Laboratory Tests, (OEI-05-00-00250). To produce this
        report, we conducted additional analyses of the data gathered.


FINDINGS

Significant Vulnerabilities Exist in CLIA’s Oversight of Waived and Provider-
Performed Microscopy Laboratories

        State surveyors and CMS studies indicate that there may be widespread problems at
        waived and provider-performed microscopy laboratories. Colorado and Ohio surveyors
        found that about half of waived and provider-performed microscopy laboratories were
        not following manufacturers’ instructions, did not have manufacturers’ instructions
        onsite, or were conducting tests they were not authorized to perform. Colorado State



  CLIA Enrollment and Certification               i                                      OEI-05-00-00251
       surveyors found 90 percent of provider-performed microscopy laboratories lacked written
       procedures or could not demonstrate the accuracy of the test method or the competency
       of testing personnel. These findings have led CMS to initiate a pilot project in eight
       other States to survey a sample of waived and provider-performed microscopy
       laboratories.

       Because waived and provider-performed microscopy laboratories are not routinely
       surveyed, surveyors do not have the opportunity to educate staff, or identify and correct
       problems. Nearly all of our State agency respondents believe that the lack of onsite visits
       of waived and provider-performed microscopy laboratories is a vulnerability. A majority
       of State respondents report that they have found these laboratories performing moderate
       or high complexity tests. We found that 13 percent of waived laboratories and 11 percent
       of provider-performed microscopy laboratories in our sample were denied Medicare
       payment for tests they were not authorized to perform.

Despite Safeguards, Some Vulnerabilities Also Exist for Moderate and High
Complexity Laboratories

       Waived and provider-performed microscopy tests are not evaluated during routine
       surveys of moderate and high complexity laboratories. Colorado surveyors found
       significant problems with waived tests conducted at 40 percent of moderate and high
       complexity laboratories.

       The CMS’s regulations permit new laboratories to operate for up to 24 months before
       they are visited to ensure compliance with CLIA requirements. Some States have
       expressed concern that laboratories may be performing poorly during this period.
       Although the CLIA regulations allow for 2 years before the initial onsite visit, some
       States report inspecting most laboratories in under a year, and CMS has encouraged
       States to inspect new laboratories three months after the initial application is complete.

CMS’s Reliance on Laboratories to Self-Identify for Enrollment Appears to be a
Weakness

       We identified 160 laboratories that had offered laboratory tests and yet were not certified
       by CLIA to do so. Despite widespread belief that most laboratories voluntarily enroll in
       the CLIA program, 43 State agencies reported that they have found sites conducting
       laboratory tests without a CLIA certificate.

Some State Processes Augment Safeguards in the CLIA Program, Although
Vulnerabilities Remain

       Some State laboratory licensure requirements may mitigate vulnerabilities in the CLIA
       program. About half of the States report having a State laboratory licensure program in
       addition to the CLIA program. Of these, ten State programs survey some or all waived
       and provider-performed microscopy laboratories, and 14 programs require initial onsite
       surveys earlier than the CLIA requirement of 24 months.


 CLIA Enrollment and Certification              ii                                      OEI-05-00-00251
RECOMMENDATIONS

       The purpose of this report is to identify vulnerabilities in the CLIA enrollment and
       certification processes. We believe that CMS needs to take some action to reduce the
       vulnerabilities identified in this report. We recognize that resources are limited and that
       implementing some of the following recommendations may require additional funding.

       Regarding waived and provider-performed microscopy laboratories, we
       recommend that CMS:

       C         Provide educational outreach to directors of waived and provider-performed
                 microscopy laboratories regarding CLIA requirements.
       C         Require laboratories applying for waived and provider-performed microscopy
                 certificates to identify which test systems they will use.
       C         Establish a mechanism whereby Medicare claim denials can be used to inform
                 State laboratory surveyors about laboratories billing outside their certificate.
       C         Use periodic paper self-assessment tools to help ensure compliance for
                 laboratories that are not routinely visited.
       C	        If CMS’s pilot project finds similar problems to those found in the Ohio and
                 Colorado studies, we encourage CMS to conduct random onsite inspections of
                 some waived and provider-performed microscopy laboratories each year.

       Regarding surveyed laboratories, we recommend that CMS:

       C	        Review waived and provider-performed microscopy testing at moderate and high
                 complexity laboratories during routine surveys.
       C         Shorten the time between application and initial onsite visits to new laboratories.
       C         Formally require accreditation agencies to inform CMS about laboratories
                 conducting tests in specialties not accredited by the agency.
       C         Establish a workgroup to develop methods to identify uncertified laboratories.


AGENCY COMMENTS

       We appreciate the assistance and cooperation we received from CMS staff while
       conducting this study. We received comments from them on this report and they
       concurred with our recommendations. The text of their comments can be found in
       Appendix A.




 CLIA Enrollment and Certification                iii                                    OEI-05-00-00251
                             TABLE OF CONTENTS



                                                                                                                              PAGE


EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Significant CLIA Vulnerabilities in Waived and Microscopy Laboratories . . . . . . . . . . . 7


          Despite Safeguards, Surveyed Laboratories Have Some Vulnerabilities . . . . . . . . . . . . . 9


          Self-Identification for Enrollment Appears to be a Weakness . . . . . . . . . . . . . . . . . . . . 11


          Some State Processes Augment CLIA Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


          A: Text of Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





   CLIA Enrollment and Certification                              iv                                                   OEI-05-00-00251
                                      INTRODUCTION

PURPOSE

         To identify vulnerabilities in the Clinical Laboratory Improvement Amendments program
         enrollment and certification processes.


BACKGROUND

         The information presented in this report was collected during the inspection titled: CLIA
         Regulation of Unestablished Laboratory Tests, (OEI-05-00-00250). That inspection’s
         purpose was to examine how the Centers for Medicare and Medicaid Services (CMS)
         regulate laboratories conducting unestablished laboratory tests. During the course of that
         inspection, we found information not only about unestablished tests, but also about
         vulnerabilities in CLIA enrollment and certification processes that apply to all
         laboratories. This report was written to outline those vulnerabilities, and includes
         additional analyses of the original data gathered.

         In 1988, Congress enacted the Clinical Laboratory Improvement Amendments (CLIA).
         The CLIA established “quality standards for all laboratory testing to ensure the accuracy,
         reliability and timeliness of patient test results regardless of where the test was
         performed.” The CMS is responsible for implementing CLIA, including laboratory
         registration, fee collection, onsite surveys and enforcement. The CMS contracts with
         State agencies and private accreditation agencies to carry out the provisions of the
         Clinical Laboratory Improvement Amendments.

         Under current law, all laboratories must be certified under CLIA to perform testing on
         human specimens.1 In addition, Medicare and Medicaid require CLIA certification as a
         condition of payment. The CLIA regulations define a laboratory as:

                  [A] facility for the . . . examination of materials derived from the human
                  body for the purpose of providing information for the diagnosis,
                  prevention or treatment of any disease or impairment of, or the
                  assessment of the health of, human beings. These examinations also
                  include procedures to determine, measure, or otherwise describe the
                  presence or absence of various substances or organisms in the body.




         1
          The regulations allow for some exceptions, including forensic laboratories, research laboratories that “do
not report patient-specific results,” drug testing laboratories certified by the Substance Abuse and Mental Health
Services Administration, and some Federal laboratories.

  CLIA Enrollment and Certification                       1                                            OEI-05-00-00251
        Laboratories enroll in the program by completing an application and paying a certificate
        fee to CMS. Fees are based on certificate type, annual volume and types of testing
        reported on the application. All laboratories are required to keep CMS informed of major
        changes in testing, laboratory ownership or directorship. All CLIA-certified laboratories
        must also comply with all State laws governing laboratories.

Types of CLIA Certificates

        Each laboratory must have a certificate appropriate for the complexity of the testing
        conducted. All laboratory test methods have been categorized by the Food and Drug
        Administration2 (FDA) into the following four categories based on testing complexity:
        high complexity, moderate complexity, provider-performed microscopy and waived. The
        type of CLIA certificate issued relates to the complexity of testing conducted at the
        laboratory (see Figure 1).




        As of July 2000, nearly 170,000 laboratories were registered under CLIA. 3 About 86,500
        laboratories (53 percent) have been issued a Certificate of Waiver. Certificates of Waiver


        2
         The Centers for Disease Control and Prevention held this responsibility until January, 2000.
        3
          This includes about 5,800 laboratories in New York and Washington which are exempt States. These
States meet CMS requirements to survey and certify laboratories under their State program. The States must pay a
fee and show CMS that the State program meets or exceeds the requirements for laboratories under CLIA.

  CLIA Enrollment and Certification                     2                                               OEI-05-00-00251
        are issued to laboratories that use specific test methods approved by the FDA for this
        category. A test may be categorized as a waived test if it is approved by FDA for home
        use, or if it is determined to have an insignificant risk of erroneous result, including those
        that:

                  C         “are so simple and accurate as to render the likelihood of erroneous results
                            negligible, or
                  C         the Secretary has determined pose no reasonable risk of harm to the
                            patient if performed incorrectly.”4

        Under the Clinical Laboratory Improvement Amendments, waived laboratories are only
        required to follow manufacturers’ instructions for waived tests and to limit testing to
        methods approved by the FDA as waived. These laboratories may be surveyed if
        complaints are filed against them, but waived laboratories are not routinely surveyed.

        Approximately 36,000 laboratories hold Certificates for Provider Performed Microscopy
        Procedures. These certificates are issued to physicians and other approved providers who
        meet CLIA requirements to perform specific moderate-complexity microscopy
        procedures. Laboratories with these certificates may also conduct waived tests. These
        laboratories are required to have written procedures for the tests they perform. All
        provider-performed microscopy laboratories must have a quality assurance system to
        evaluate test method accuracy and a system to assure competency of testing personnel.




        4
         Clinical Laboratory Improvement Amendments of 1988, Pub. L. No. 100-578, sec. 353(d)(3)(B) and sec.
353(d)(3)(C) (1988).

  CLIA Enrollment and Certification                   3                                        OEI-05-00-00251
       All provider-performed microscopy tests must be performed by a physician or other
       qualified provider as defined in CLIA regulations. No other laboratory employee is
       permitted to conduct these tests. As with waived laboratories, laboratories with a
       provider-performed microscopy certificate may be surveyed if complaints are filed, but
       are not otherwise routinely inspected by CLIA surveyors.

       The remaining 41,500 laboratories conduct moderate or high complexity testing. When
       these laboratories initially apply for CLIA certification, they are issued a Certificate of
       Registration and a CLIA number. Laboratories with a Certificate of Registration can
       conduct testing and bill Medicare and Medicaid until they are inspected. Onsite
       inspections occur within 24 months of filing an application and are used to verify
       compliance with CLIA standards. Once the laboratory has proven to surveyors that it
       meets all requirements, it is issued a Certificate of Compliance or a Certificate of
       Accreditation. These laboratories are revisited every 2 years to verify compliance with
       CLIA standards.

Surveys: State Agencies, Accreditation Agencies and CMS Regional Offices

       The majority of moderate and high complexity laboratories are surveyed by State
       agencies. The CMS contracts with State survey agencies to carry out the oversight
       provisions of CLIA, including routine visits to laboratories as required under CLIA law.
       State agencies also investigate complaints and maintain laboratory application and survey
       records in CMS databases.

       Laboratories can elect to be surveyed by an accreditation agency that has been approved
       by CMS. The CMS has contracts with six such agencies to provide surveys of
       laboratories. Some accreditation agencies review all specialties and subspecialties, while
       other agencies only accredit some of them. Accreditation agencies tend to serve specific
       types of laboratories. For example, the Commission on Office Laboratory Accreditation
       primarily accredits physician office laboratories. Every 2 years, States conduct
       validation surveys of 5 percent of the accredited laboratories in their State.

       The CMS’s regional offices assist States in their oversight functions. Regional office
       staff perform onsite surveys of federally operated laboratories, State laboratories and
       some county laboratories. Regional office surveyors also conduct monitoring surveys of
       laboratories that the State has inspected to ensure the accuracy of State surveyor
       inspections. In addition to surveys, regional offices provide advice to States and
       laboratories regarding CLIA regulations, processes and procedures.

Specialties and Subspecialties

       The CMS has divided all laboratory tests into nine testing specialties:
       Histocompatibility, Microbiology, Diagnostic Immunology, Chemistry, Hematology,
       Immunohematology, Pathology, Radiobioassay and Clinical Cytogenetics. Six of these
       specialties are further divided into a total of 21 subspecialties. All laboratories, except



 CLIA Enrollment and Certification               4                                      OEI-05-00-00251
        those applying for a Certificate of Waiver, must report their intended testing specialties
        and subspecialties on their CLIA application. All CLIA-certified laboratories are
        required to notify CMS of any changes to their specialties and subspecialties.

Waived Laboratories and CMS’s Pilot Studies

        In 1999, Colorado and Ohio State surveyors received permission from CMS to conduct
        random inspections of about 100 waived and provider-performed microscopy laboratories
        in their respective States. After reviewing these State studies, CMS concluded that,
        “significant quality and certification problems were identified in over 50 percent of these
        laboratories.” Consequently, CMS has begun similar pilot projects in eight additional
        States to determine whether problems found in Colorado and Ohio exist elsewhere.

        The number of waived laboratories and waived tests has increased significantly since the
        beginning of the CLIA program. In 1992, waived laboratories accounted for about 20
        percent of all CLIA-certified laboratories. Today, 53 percent of all laboratories are
        waived. In 1992, the waived category covered nine tests such as urine pregnancy,
        glucose and urine dipstick or tablet analysis. Currently there are about 40 tests in the
        waived category. Test systems are created by manufacturers and given brand names,
        resulting in multiple test systems for each type of test. There were 250 waived test
        systems in 1995, which increased to approximately 840 test systems by September 2000.

        Waived laboratories are exempted from routine site visits in CLIA law and regulations, 5
        although States are not prohibited from requiring site visits to waived laboratories. The
        main reason these laboratories are not site visited is because waived tests are those that
        are simple, accurate and unlikely to pose harm to the patient if performed incorrectly.
        For laboratories conducting these simple tests, waived (and later provider-performed
        microscopy) categories minimized regulatory and financial burdens. Without the cost of
        surveys, CMS was able to set CLIA fees for waived and provider-performed microscopy
        laboratories very low.


METHODOLOGY

        As noted earlier, the information presented in this report was collected during the
        inspection titled: CLIA Regulation of Unestablished Laboratory Tests, (OEI-05-00-
        00250). For this report, we conducted additional analyses of the enrollment and
        certification information gathered during the study on unestablished tests.

        To estimate the extent of laboratories conducting tests not authorized by their certificates,
        we looked at CLIA enrollment and certification data to identify waived and provider-




        5
         Clinical Laboratory Improvement Amendments of 1988, Pub. L. No. 100-578, sec. 353(d)(2)(C) (1988).
Laboratory Requirements, 42 C.F.R., sec. 493.1775 (1992).

  CLIA Enrollment and Certification                   5                                         OEI-05-00-00251
         performed microscopy laboratories. We compared these lists to a 5 percent sample of
         Medicare Part B claims billed in 1999. We examined billing by waived and provider-
         performed microscopy laboratories for laboratory tests that they were not authorized to
         perform.

         We reviewed CLIA regulations, policies and procedures. We interviewed CMS central
         office staff and regional office staff in five regions. We contacted State agencies in all 50
         States, the District of Columbia and Puerto Rico. We conducted in-person interviews
         with State agency staff in the District of Columbia and 11 States: Arizona, California,
         Delaware, Illinois, Kansas, Maryland, Missouri, New Jersey, New York, Pennsylvania
         and Wisconsin. The remaining 39 States and Puerto Rico completed written surveys.
         Overall, 52 State agencies participated in this study.6

         In our interviews and written surveys, we asked questions about enrollment and
         certification processes and obtained information about respondents’ experiences with the
         CLIA program. We also asked respondents for their opinions on certain CLIA
         enrollment and certification processes.

         Similar discussions were held with representatives from the following three accreditation
         agencies: the College on Office Laboratory Accreditation, the Joint Commission on
         Accreditation of Healthcare Organizations and the College of American Pathologists.
         These organizations were contacted because they have deemed status from CLIA to
         provide survey and certification services for some laboratories. These three agencies
         survey over 95 percent of the accredited laboratories in the CLIA program.

         We also interviewed staff at the Centers for Disease Control and Prevention (CDC) and
         at the FDA. These agencies play a role in advising and assisting CMS in carrying out the
         provisions of the CLIA law.

         As part of this study, we performed a secondary analysis of results from two studies of
         waived and provider-performed microscopy laboratories conducted by CLIA surveyors in
         Colorado and Ohio.7 These reports were initiated by the States and conducted with the
         permission of CMS.

         We conducted our review in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.



         6
           Collectively, the respondents from the 50 States, the District of Columbia, and Puerto Rico will be
referred to as “State agencies” or “States” in this inspection report.
         7
          “Waived/Provider-Performed Microscopy Procedure Laboratory Certificate Verification Surveys"
conducted by the Ohio Department of Health, Division of Quality Assurance, Bureau of Diagnostic Safety and
Personnel Certification, Laboratory Certification Program. A special CLIA project to “evaluate the compliance for
non routinely inspected tests in both sites that receive routine inspections and in sites without routine inspections,”
conducted by the Colorado Department of Public Health and Environment, Laboratory and Radiation Services
Division, CLIA Program. Both studies were conducted in Fiscal Year 1999.

  CLIA Enrollment and Certification                        6                                              OEI-05-00-00251
                                        FINDINGS

Significant vulnerabilities exist in CLIA’s oversight of waived
and provider-performed microscopy laboratories
Lack of onsite visits of waived and provider-performed microscopy laboratories
is a program vulnerability

       Waived and provider-performed microscopy laboratories, which account for 75 percent
       of all CLIA-certified laboratories, are not surveyed. Therefore, surveyors do not have the
       opportunity to identify and correct problems, and educate untrained laboratory staff at
       these laboratories. During routine visits of moderate and high complexity laboratories,
       CMS employs an educational survey process where surveyors educate non-compliant
       laboratories about the CLIA requirements applicable for their particular setting.

       When surveyors have visited waived and provider-performed microscopy laboratories
       they report finding compliance problems. About 90 percent of State respondents believe
       that the lack of routine site visits to waived and provider-performed microscopy
       laboratories presents program vulnerabilities. About half of our State agency respondents
       report experiencing problems with waived and provider-performed microscopy
       laboratories in their State. Fifteen States mentioned concerns about testing at waived and
       provider-performed microscopy laboratories such as:

                 C         laboratories not following manufacturers’ instructions, 

                 C         failure to identify incorrect results, 

                 C         testing beyond the laboratory’s CLIA certificate,

                 C         untrained staff, 

                 C         lack of quality controls, 

                 C         poor equipment, 

                 C         poor storage of reagents, 

                 C         poor record keeping, and

                 C         misunderstanding of CLIA requirements. 


       One respondent calls the lack of site visits for waived laboratories “a huge black hole in
       the integrity of the CLIA program. If no one ever checks on them . . . they can
       essentially do whatever they want.” For the most part, State respondents only have
       contact with waived and provider-performed microscopy laboratories over the telephone
       and in onsite surveys resulting from complaints. Therefore, it is difficult for surveyors to
       estimate the extent of problems at these laboratories.




 CLIA Enrollment and Certification                   7                                 OEI-05-00-00251
In two States, about half of waived and provider-performed microscopy
laboratories may be non-compliant

       State surveyors in Colorado surveyed a random sample of waived and provider-
       performed microscopy laboratories and found that 56 percent were of out of compliance
       with CLIA requirements. Ohio surveyors conducted a similar survey and found 45
       percent of waived and provider-performed microscopy laboratories out of compliance.
       Colorado and Ohio surveyors found similar compliance problems in the laboratories they
       surveyed. Compliance problems for waived laboratories include the following:

                 C         not following manufacturers’ instructions,
                 C         not having manufacturers’ instructions available for referencing when
                           visited onsite, and
                 C         testing outside their certificate level.

       Both States also found problems with provider-performed microscopy laboratories.
       Colorado found 90 percent of provider-performed microscopy laboratories lacked written
       procedures or could not demonstrate the accuracy of the test method or the competency
       of testing personnel. In both States, non-compliant provider-performed microscopy
       laboratories were found to have the following deficiencies:

                 C         expired reagents and controls, 

                 C         no written procedures for tests conducted, 

                 C         no quality assurance methods, 

                 C         no proficiency testing, 

                 C         no quality assurance of staff competency, and 

                 C         testing outside their certificate level. 


Some laboratories are testing outside of their waived or provider-performed
microscopy certificates

       Some surveyors have found laboratories testing outside their certificates. The Ohio State
       agency study found that about 10 percent of waived and provider-performed microscopy
       laboratories were conducting tests not authorized under their CLIA certificate. A
       majority of our State respondents report that they have found waived and provider-
       performed microscopy laboratories conducting moderate or high complexity tests.
       Twenty-two States estimate that a small percent of all applications for Certificates of
       Waivers or provider-performed microscopy certificates are submitted by laboratories
       conducting higher complexity testing. The exact number of laboratories testing beyond
       their certificate is unknown.

       In looking at a 5 percent sample of laboratory tests billed to Medicare, we found about
       1,700 waived laboratories out of about 13,000 (13 percent) billed Medicare for non-
       waived tests and were denied payment for having an inappropriate CLIA certificate. Of




 CLIA Enrollment and Certification                  8                                    OEI-05-00-00251
       the 13,444 provider-performed microscopy laboratories in our sample, 11 percent were
       denied payment for tests they were not authorized to perform.

       When a laboratory bills Medicare for tests not covered by their CLIA certificate, it may
       be an indicator that the laboratory is conducting higher complexity testing. Several State
       respondents believe that when laboratories have their Medicare claims denied for
       inappropriate CLIA certification, the laboratories are likely to seek out an appropriate
       certificate so that they can get Medicare and Medicaid reimbursement. Some Medicare
       carriers notify State agencies when a laboratory bills for services outside their CLIA
       certificate. However, no formal mechanism exists for Medicare or Medicaid fiscal agents
       to report laboratories billing outside their certificate level to CMS or State agencies.


Despite safeguards, some vulnerabilities also exist for
moderate and high complexity laboratories
       Onsite surveys and Medicare denials are the most important tools that CMS has to ensure
       that laboratories meet CLIA requirements. Onsite visits are used to verify that a
       laboratory meets all requirements and has correctly reported testing information to CMS.
       State agency respondents believe that Medicare and Medicaid denials of services not
       authorized under a laboratory’s CLIA certificate are strong motivation for laboratories to
       correct any errors in their CLIA certification.

Waived and provider-performed microscopy tests conducted at moderate and
high complexity laboratories are vulnerable to noncompliance

       Routine surveys of moderate or high complexity laboratories do not include reviews of
       waived and provider-performed microscopy testing. Therefore, any problems with these
       tests would not be identified and corrected through the routine CLIA survey process.
       Colorado surveyors found 40 percent of moderate and high complexity laboratories failed
       to follow manufacturers’ instructions for waived tests. Surveyors had expected to find
       few compliance problems with waived and provider-performed microscopy tests in
       moderate and high complexity laboratories since these laboratories are routinely surveyed
       to ensure quality testing. They also found one-third of the moderate and high complexity
       laboratories had no written microscopy procedures or quality assurance for their
       microscopy methods. Laboratories with major compliance problems such as failure to
       follow manufacturers’ instructions and lack of quality assurance may produce incorrect
       test results and thus impact patient health.

Allowing new laboratories to operate and bill Medicare and Medicaid for up to 24
months before they are surveyed may be a vulnerability

       Although onsite surveys provide some safeguards, moderate and high complexity
       laboratories that have newly registered for Certificates of Registration may operate



 CLIA Enrollment and Certification              9                                     OEI-05-00-00251
        without being surveyed for up to 24 months. Laboratories are assigned a CLIA number
        when their application is accepted, which allows them to receive reimbursement from
        Medicare and Medicaid during this period.

        A majority of State agencies reported that this 2 year period may be a vulnerability in the
        CLIA program. Specifically, laboratories may be providing incorrect results, may have
        poor quality laboratory practices or may be performing tests outside of their certificate.
        Under current policy, onsite visits to laboratories are not made until survey fees are paid.
        Although the CLIA regulations allow for 2 years before the initial onsite visit, some
        States report inspecting most laboratories in under a year, and CMS has encouraged
        States to inspect new laboratories three months after the initial application is complete.

Accreditation agencies do not report laboratories testing in specialties outside
their CLIA certificate

        Over 60 percent of State agencies reported that they would not know if a laboratory was
        performing work in a specialty not covered by the laboratory’s chosen accrediting body.
        Accreditation agencies are not required to notify CMS when they find a laboratory
        testing in specialties that they do not examine. When an accreditation agency determines
        that a laboratory is performing a test that is not covered by the agency, they inform the
        laboratory that it is the laboratory’s responsibility to seek certification or accreditation for
        the testing from CLIA or from another accreditation agency. It is left to the laboratory to
        follow through and register with CLIA or another accreditation agency to review their
        tests. Some States reported that they check applications to identify cases where a
        laboratory intends to conduct testing in a specialty not accredited by the agency selected.

Laboratories may downgrade their certificate to avoid CLIA requirements

        According to some State surveyors, some moderate and high complexity laboratories
        may seek to avoid site visits by downgrading their certificate to waived or provider-
        performed microscopy before their scheduled survey. These laboratories can conduct
        moderate and high complexity tests and bill Medicare or Medicaid until they downgrade
        their certificates. Downgrading means that potentially out-of-compliance laboratories
        agree to cease moderate and high complexity testing and can avoid correction processes.

        Anecdotal information from States indicates that a few laboratories have taken advantage
        of this vulnerability in the past and gamed the CLIA certification and Medicare
        reimbursement systems. A few States mentioned pursuing cases where a laboratory
        cycled between moderate complexity testing and waived testing. These laboratories
        would conduct moderate complexity laboratory tests while under a Certificate of
        Registration for up to 24 months before switching to waived testing. After receiving a
        Certificate of Waiver, the laboratory would switch back to moderate complexity testing
        under a new Certificate of Registration and resume moderate complexity testing without
        achieving compliance with CLIA requirements. While this vulnerability exists, we do
        not know if it is widespread.



  CLIA Enrollment and Certification               10                                       OEI-05-00-00251
The CMS’s reliance on laboratories to self-identify for
enrollment appears to be a weakness
        During a recent study, we identified 160 laboratories that had offered tests without a
        CLIA certificate.8 We specifically attempted to identify only laboratories offering
        unestablished laboratory tests, which are not reimbursable by Medicare. Respondents
        believe that laboratories conducting these types of tests bill the patient directly and do not
        have the same incentives that traditional laboratories have to enroll in CLIA. It appears
        likely that there are additional, unidentified laboratories conducting established and
        unestablished laboratory testing without CLIA certification.

        Despite widespread belief that most laboratories voluntarily enroll in CLIA, 43 State
        agencies (81 percent) reported that they have found laboratories conducting testing
        without a CLIA certificate. The exact number of non-certified laboratories is unknown.
        Some respondents believe that most laboratories voluntarily enroll in CLIA because they
        plan to bill Medicare and Medicaid and they must have appropriate CLIA certification
        for the tests they bill.

        Non-certified laboratories come to the attention of State surveyors in several ways.
        States report that they identify uncertified laboratories via complaints from the public,
        referrals from other State agencies and leads from local insurance companies. Some
        States report that they have seen advertising for non-certified laboratories. While
        conducting CLIA site visits, a few States routinely ask whether any additional
        laboratories are in the building or owned by the same company. Additionally, some
        States report that local Medicare or Medicaid contractors refer non-certified laboratories
        to the State agency.


Some State processes augment CLIA’s safeguards, although
vulnerabilities remain
        In most States with laboratory licensure programs, laboratory regulations are identical or
        similar to CLIA’s regulations. However, there are some exceptions. Some States have
        processes that go beyond CLIA regulations. Although these States are still exposed to
        some vulnerabilities in the CLIA program, their additional processes may mitigate CLIA
        program vulnerabilities to some extent.

Some State laboratory licensure requirements may mitigate CLIA vulnerabilities

        About half of States surveyed report having a State laboratory licensure program in
        addition to CLIA. Many State programs parallel CLIA, but some allow States to take


        8
         Department of Health and Human Services, Office of Inspector General, CLIA Regulation of
Unestablished Laboratory Tests, OEI-05-00-00250, 2001.

  CLIA Enrollment and Certification                  11                                             OEI-05-00-00251
        additional actions that minimize CLIA program vulnerabilities. Ten State programs
        require surveys of some or all waived and provider-performed microscopy laboratories.
        Four States also require that all accredited laboratories be surveyed by their program.

        Fourteen State programs require that surveyors inspect laboratories earlier than the CLIA
        requirement of 24 months. Five of these States reported that site visits must occur before
        a laboratory is allowed to test or before a license is issued. Seven States report that sites
        must be visited within 10, 30, 60 or 90 days of the application. Two States require
        annual surveys even though the CLIA program requires visits every 2 years.

        Maryland is an example of a State with regulations and processes that bolster surveyors’
        ability to ensure compliance. Surveyors visit laboratories quicker than the 24 months
        permitted by CLIA. In Maryland, initial visits to laboratories are usually made within 90
        days to 1 year of application. Moreover, Maryland routinely conducts initial surveys of
        all accredited laboratories, and routine surveys of some waived and provider-performed
        microscopy laboratories. Unlike most States, Maryland also reviews waived and
        provider-performed microscopy testing conducted at moderate and high complexity
        laboratories. Maryland staff report finding the same types of deficiencies in waived and
        provider-performed microscopy testing that were found in the Colorado and Ohio studies.
        They report that repeated surveys are effective in bringing laboratories into compliance.
        However, when laboratory staff turns over deficiencies often occur again due to lack of
        training and poor administrative oversight in the laboratory.

A majority of States require lists of tests on applications; some believe this has
improved the accuracy of certificate and specialty categorization

        Lists of tests are not required as part of the standard CLIA application form. However,
        36 States ask laboratories to submit a list of tests that they intend to perform and/or
        laboratory equipment that they intend to use as part of the CLIA application process.
        These test lists further supplement the list of specialties and subspecialties required by
        CLIA. About two-thirds of these States report that most laboratories are disclosing the
        full range of testing and/or equipment that they intend to use. However, because
        laboratories often change the testing they conduct, these lists are used as an initial
        indicator for State agencies. Some respondents noted that some laboratories neglect to
        submit the list of tests with the application. Several States indicated that the list of tests
        is useful to help ensure that the laboratory receives the correct certificate.

        In the past, there has been opposition to requirements for laboratories to disclose
        information on CLIA applications about their laboratory practices, including the number
        and name of tests and test methodologies used. Those opposed felt that requiring
        laboratories to report this information would be burdensome for laboratories that conduct
        extensive testing.




  CLIA Enrollment and Certification               12                                       OEI-05-00-00251
                          RECOMMENDATIONS

       The purpose of this report is to identify vulnerabilities in the CLIA enrollment and
       certification processes. We did not initially intend to focus on waived and provider-
       performed microscopy laboratories. Our findings indicate that further study in this area
       is warranted. We believe that CMS needs to take some action to reduce the
       vulnerabilities identified in this report. We recognize that resources are limited and that
       implementing some of the following recommendations may require additional funding.

Waived and Provider-Performed Microscopy Laboratories

       We believe that CMS’s pilot project to examine the compliance of waived and provider-
       performed microscopy laboratories in eight additional States will be integral to any
       regulatory or legislative changes needed to address vulnerabilities associated with these
       types of laboratories. With regard to waived and provider-performed microscopy
       laboratories, we recommend that CMS:

       C	        Provide educational outreach to laboratory directors of waived and provider-
                 performed microscopy laboratories. Directors should be periodically informed
                 about the CLIA requirements for the testing they conduct, as well as the
                 limitations involved in the waived and provider-performed microscopy
                 certificates. This could include establishing a newsletter, a toll-free phone
                 number, and/or disseminating information through professional groups.

       C	        Require laboratories applying for waived and provider-performed microscopy
                 certificates to identify which tests they plan to conduct and which test systems
                 they will use. This could be a test checklist on the CLIA application.

       C	        Establish a mechanism whereby Medicare claim denials can be used to inform
                 State laboratory surveyors about laboratories billing Medicare outside their
                 certificate. Specify a threshold of the number of incorrect claims billed by a
                 laboratory that would result in a referral to surveyors.

       C	        Use periodic paper self-assessment tools to help ensure compliance for
                 laboratories that are not routinely visited. This could be a checklist of compliance
                 requirements for waived and provider-performed microscopy laboratories.

       C	        If CMS’s pilot project shows that the extent of problems in waived and
                 provider-performed microscopy laboratories is similar to that found in the Ohio
                 and Colorado studies, we would encourage CMS to conduct random surveys of
                 some waived and provider-performed microscopy laboratories each year.




 CLIA Enrollment and Certification                13                                     OEI-05-00-00251
Moderate and High Complexity Laboratories

       We recommend that CMS take the following actions regarding moderate and high
       complexity laboratories:

       C	        Review the waived and provider-performed microscopy tests conducted at
                 moderate and high complexity laboratories during routine surveys to ensure
                 compliance with CLIA regulations.

       C	        Shorten the length of time allowed between application and surveys for new
                 laboratories.

       C	        Formally require accreditation agencies to inform CMS about laboratories
                 conducting tests in specialties not accredited by the agency.

       C	        Establish a workgroup to develop methods that can be used to identify uncertified
                 laboratories. Methods could include collaboration with State and local licensing
                 bodies.




 CLIA Enrollment and Certification               14                                    OEI-05-00-00251
                          AGENCY COMMENTS

      We appreciate the assistance and cooperation we received from CMS staff while
      conducting this study. We received comments from them on this report and they
      concurred with our recommendations. The text of their comments can be found in
      Appendix A.




CLIA Enrollment and Certification          15                                   OEI-05-00-00251
                                                       APPENDIX A
                                    Agency Comments





CLIA Enrollment and Certification          16             OEI-05-00-00251
CLIA Enrollment and Certification   17   OEI-05-00-00251
CLIA Enrollment and Certification   18   OEI-05-00-00251
